BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Reply Brief for Petitioners in 20-1334,
Bradley Boardman, a Washington Individual Provider,
et al. v. Jay R. Inslee, Governor of the State of
Washington, et al. was sent via Next Day Service to
the U.S. Supreme Court, and e-mail to the following
parties listed below, this 21st day of July, 2021:
Scott A. Kronland
Altshuler Berzon, LLP
177 Post Street
Suite 300
San Francisco, CA 94108
(415) 421-7151
skronland@altshulerberzon.com
Counsel for Respondents
Campaign to Prevent Fraud and Protect Seniors
Noah Guzzo Purcell
Office of the Attorney General
1125 Washington Street, SE
P.O. Box 40100
Olympia, WA 98504-0100
(360) 7 53-6200
noahp@atg.wa.gov
Counsel for Respondents
Jay R. Inslee, Governor of the State of Washington, et
al. (except Campaign To Prevent Fraud and Protect
Seniors)

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive

Franklin Square

Cincinnati, Ohio 45249

1300 I Street, NW, Suite 400E
Washington, DC 20005

I Suite 102

Gregory J. Wong
Pacifica Law Group
1191 Second Avenue, Suite 2000
Seattle, WA 98101
2062451700
Greg.Wong@pacificalawgroup.com

Counsel for Respondents
Campaign to Prevent Fraud and Protect Seniors
Paul D. Clement
Counsel of Record
Erin E. Murphy
Andrew C. Lawrence
Kirkland & Ellis LLP
1301 Pennsylvania Ave., NW
Washington, DC 20004
(202) 389-5000
pa ul.clement@kirkland.com
Susan K. Stahlfeld
Miller Nash LLP
Pier 70
2801 Alaskan Way, Ste 300
Seattle, WA 98121
Caleb Jon F. Vandenbos
Freedom Foundation
P.O. Box 552
Olympia, WA 98507

Counsel for Petitioners

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on July 21, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.

l

Notary
[seal]

